<html>
<title> - ADVANCING U.S. INTERESTS: EXAMINING THE PRESIDENT'S FY 2017 BUDGET PROPOSAL FOR AFGHANISTAN AND PAKISTAN</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                ADVANCING U.S. INTERESTS: EXAMINING THE
                PRESIDENT'S FY 2017 BUDGET PROPOSAL FOR
                        AFGHANISTAN AND PAKISTAN

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                AND THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 27, 2016

                               __________

                           Serial No. 114-183

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                ___________
                                
                                
                       U.S. GOVERNMENT PUBLISHING OFFICE
99-946PDF                    WASHINGTON : 2016                       
                     
_______________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7017001f301305030418151c005e131f1d5e">[email&#160;protected]</a>  
                     
                      
                      
                      
                      
                      
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York

                             ----------                                

                  Subcommittee on Asia and the Pacific

                     MATT SALMON, Arizona Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             TULSI GABBARD, Hawaii
JEFF DUNCAN, South Carolina          ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            GRACE MENG, New York
SCOTT DesJARLAIS, Tennessee
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Richard Olson, U.S. Special Representative for 
  Afghanistan and Pakistan, U.S. Department of State.............     9
Mr. Donald L. Sampler, Jr., Assistant to the Administrator, 
  Office of Afghanistan and Pakistan Affairs, U.S. Agency for 
  International Development......................................    21

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Richard Olson: Prepared statement..................    11
Mr. Donald L. Sampler, Jr.: Prepared statement...................    23

                                APPENDIX

Hearing notice...................................................    46
Hearing minutes..................................................    47
The Honorable David Cicilline, a Representative in Congress from 
  the State of Rhode Island: Prepared statement..................    48
Written responses from the Honorable Richard Olson to questions 
  submitted for the record by:
  The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
    from the State of Florida, and chairman, Subcommittee on the 
    Middle East and North Africa.................................    49
  The Honorable David A. Trott, a Representative in Congress from 
    the State of Michigan........................................    52

 
                ADVANCING U.S. INTERESTS: EXAMINING THE
                  PRESIDENT'S FY 2017 BUDGET PROPOSAL
                  FOR AFGHANISTAN AND PAKISTAN

                              ----------                              


                       WEDNESDAY, APRIL 27, 2016

                     House of Representatives,    

          Subcommittee on the Middle East and North Africa and

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittees met, pursuant to notice, at 10:06 a.m., 
in room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the Subcommittee on Middle East and North 
Africa) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order.
    After recognizing myself, Chairman Salmon, Ranking Member 
Deutch, and Ranking Member Sherman for 5 minutes each for our 
opening statements, I will then recognize other members seeking 
recognition for 1 minute. We will then hear from our witnesses.
    Thank you for being here today.
    Without objection, the witnesses' prepared statements will 
be made a part of the record, and members may have 5 days to 
insert statements and questions for the record subject to the 
length limitation in the rules.
    Before we begin, I would like to express my deepest 
condolences to the families and friends of those killed by the 
Taliban last week in Kabul, a terrorist attack which claimed 
the lives of 64 people and wounded more than 370 others. I know 
I speak on behalf of Chairman Salmon and all members here today 
when I say we condemn this attack and all terrorist attacks in 
the strongest possible manner.
    The Chair now recognizes herself for 5 minutes.
    This hearing represents an important opportunity for both 
of our subcommittees, allowing members to provide appropriate 
and necessary oversight of the President's budget request for 
Afghanistan and Pakistan, each of which fall under our 
different subcommittee's jurisdictions.
    This year the President is requesting approximately $1.2 
billion for Afghanistan and about $742 million for Pakistan in 
the foreign aid budget. For comparison's sake, the combined 
request for these countries is about 77 percent of the overall 
request for the South and Central Asia region, and about 4 
percent of the entire foreign affairs request for this year. It 
is critical that Congress understands exactly where this money 
is going and whether we are getting a good return on our 
investment, and assesses how we can ensure that these funds are 
helping achieve U.S. interests in the most effective way 
possible.
    When I led a CODEL to Afghanistan in November 2015, I was 
struck by the positive changes that President Ghani and CEO 
Abdullah had made since former President Karzai stepped down. 
Despite their differences, every official we met with said that 
Ghani and Abdullah are a vast improvement over Karzai, and that 
they have proven to be partners who are willing and able to 
cooperate with the United States, while taking steps to root 
out corruption and stabilize their country. But last week's 
terrorist attack in Kabul is a sobering reminder of the 
challenges that Afghanistan continues to face from the Taliban 
and other terrorist groups.
    While Afghan security forces have had some success since 
taking the lead last year, the Taliban is resurgent in 
Afghanistan and is responsible for most of last year's 5,500-
plus military casualties and 10,000-plus killed or wounded 
civilians. The Taliban is adapting to the Afghan military's 
tactics, moving into new territory as it gets pushed out of 
others, and using terrorism to inflict the kind of mass 
violence that we saw in Kabul. The Taliban is also adapting to 
our restrictive rules of engagement, understanding the 
extremely limited situations when the U.S. actually does 
provide air support to the Afghan security forces, and 
adjusting their tactics accordingly.
    When I was in Afghanistan in November, our troops did not 
have the authority to target ISIS, allowing it to grow in 
strength and numbers before the President finally authorized 
ISIS as a target earlier this year. The President needs to 
allow U.S. forces to target the Taliban as well, and I urge the 
administration to provide the Afghan security forces with the 
close air support and surveillance assistance they so 
desperately need.
    It is extremely difficult to negotiate with an enemy who 
sees its position constantly improving. And as President Ghani 
said yesterday, the Taliban operates freely because Pakistan 
refuses to take action against it inside its borders. Pakistan 
is a direct contributor to the Taliban's success, not only 
allowing them to use Pakistani territory as a safe haven, but 
providing it support inside Afghanistan's borders. It makes 
little sense to continue giving Pakistan billions of dollars if 
it is going to continue to work against our interests.
    We must leverage our aid to Pakistan so that it is a better 
regional partner with Afghanistan, and also helps us to root 
out terrorists within its borders. That includes stopping the 
sale of F-16s that Pakistan does not need and will probably not 
use in its supposed fight against terrorism. We should instead 
be prioritizing assistance for Afghanistan which, in addition 
to its security needs, continues to struggle with an enormous 
budget deficit, an economy almost entirely reliant on donor 
aid, and rampant and widespread corruption.
    With corruption still a significant issue, I continue to be 
concerned by our provision of on-budget assistance, and 
question whether our aid is getting to the right places. 
Afghanistan has said it needs about $10 billion donated each 
year until 2025 before it is self-sufficient. And I fear what 
will happen to Afghanistan's economy once the donor fatigue 
that has already set in gets worse.
    In addition, not enough attention is being paid to 
counternarcotics efforts in Afghanistan, which already accounts 
for 90 percent of the world's heroin. And I am concerned that 
the administration's decision to draw down resources in this 
area will allow a boom in poppy production, if it hasn't 
already.
    When I was in Afghanistan, the commanders on the ground 
told us that they do not have the authority to carry out 
counternarcotics operations. And while DEA's presence has been 
substantially reduced, INL's footprint is also restricted due 
to the reduced DOD presence. The Afghan military does not have 
the resources to focus on counternarcotics while it is 
concentrated on fighting the Taliban.
    So with all that said, the question is who is going to 
cover counternarcotics operations? With the Afghan 
counternarcotics chief declaring that no eradication will occur 
in the Helmand Province this year due to the Taliban's 
presence, the drug trade is poised to expand even more, fueling 
both the Taliban's operations and Afghanistan's massive 
addiction problem. In all of these areas we need to be giving 
the Afghan Government a chance to succeed, supporting it 
politically and providing it with the right kinds of security 
assistance, while helping bolster its economy and redoubling 
our counternarcotics efforts.
    Afghanistan is an important ally in an important region of 
the world, and its security, its stability, and its success are 
critical for U.S. interests. We must remain engaged for the 
long term.
    I am honored to now recognize the ranking member, Mr. 
Deutch, for his opening statement.
    Mr. Deutch. Well, I thank you, Chairman Ros-Lehtinen and 
Chairman Salmon, for holding today's hearing to examine the 
President's budget request for Afghanistan and Pakistan.
    Thanks to my fellow ranking member Mr. Sherman for his 
longstanding and thoughtful leadership in this region of the 
world.
    And welcome to our esteemed witnesses.
    For a decade and a half, U.S. troops, along with our 
international coalition partners, have been on the ground in 
Afghanistan. After so many years, after so many tragic losses, 
the American public is understandably weary of continued 
engagement.
    When President Obama announced his intention to draw down 
troops, many welcomed the end of significant American troop 
presence in Afghanistan, while others worry that the withdrawal 
would end the significant gains made in development and leave 
the fledgling Afghan national defense and security force unable 
to defend its country from terrorists.
    I am extremely sensitive to the idea of long-term troop 
engagement in Afghanistan. And I want our men and women home 
safe. But I believe that the President's decision last year to 
maintain 9,800 troops through the end of the year was correct. 
The administration must evaluate strategic decisions based on 
conditions on the ground, not on a preset timetable. And with 
the rise of ISIS, which has made clear its intent to attack 
Western targets, we cannot allow Afghanistan to revert to a 
breeding ground for terrorists.
    The United States has committed over $100 billion since 
ousting the Taliban from Afghanistan. After years of corruption 
under and difficult cooperation from the Karzai government, we 
were hopeful that the 2014 transition of power would bring 
renewed leadership. Secretary Kerry's brokered National Unity 
Government between President Ghani and CEO Abdullah brought a 
renewed hope for real reform. And while I believe that both 
President Ghani and CEO Abdullah want to see their reform 
agenda succeed, they have been hampered by disagreements among 
their political backers.
    So how can the U.S. best support these reform efforts? For 
our aid dollars to be effective, we need a country strategy 
that supports the vision of the unity government, both in 
development goals and in security. We need to see gains in 
long-term sustainable projects. We have made impactful gains in 
areas like women's access to education and healthcare, but we 
need to see economic gains that will help Afghanistan become 
self-sufficient.
    This is a country that is dependent on foreign aid for 95 
percent of its GDP. How can we continue progress toward 
creating jobs, rooting out corruption, creating an independent 
fully functioning judiciary, while we enter what could be a 
very difficult fighting season?
    Since the Taliban's incursion into Kunduz last year, the 
attacks have continued. Fighting in Helmand continued, even 
throughout the normally quieter winter. The large-scale attack 
in Kabul last week was a tragic remainder of the past where 
truck bombings in the city were heard all too frequently. And 
as we enter the spring fighting season, it is now more 
important than ever that Afghan troops are prepared.
    The continued U.S. role of training, advising, and 
equipping will be critical. Afghan forces have shown that they 
can have the capability to defend and hold territory. They are 
not the Iraqi military. They have not had an experience of 
cutting and running. And while there is still a long way to go 
to professionalize the Afghan security force, rooting out 
corruption, addressing severe allegations of sexual abuse, and 
making sure that soldiers are getting adequate leave and pay, I 
don't believe that now is the time to abandon our support for 
these forces.
    At the same time, we have to continue to encourage 
reconciliation talks. President Ghani has used a tremendous 
amount of political capital reaching out to Pakistan in hopes 
of securing cooperation on the Taliban. Yet Ghani has found 
himself burned time and time again. In a surprising change of 
tone this week, Ghani stated that if Pakistan does not increase 
cooperation on preventing cross-border attacks, he may seek 
referral to the United Nations Security Council. And we are a 
long way from reconvening reconciliation talks, and there are 
many steps that need to be taken before those talks can begin.
    If Pakistan wants to be a helpful partner, it must take 
real and actionable steps to combat all terrorism. Receiving 
$742 million must yield greater cooperation on what should be 
mutual regional security concerns. Pakistansecurity forces must 
treat all terrorist groups equally, not choose to turn a blind 
eye to some.
    The conditions set forth in Kerry-Lugar-Berman in 2010 have 
only been met once. They have been continually waived on the 
basis of national security, but we have an opportunity here to 
seriously consider how to incentivize better cooperation. And I 
must say that I share the concerns of leadership of this 
committee about Pakistan's bid to buy F-16s with American 
financing.
    As we go forward in both Afghanistan and Pakistan and our 
aid dollars decrease, we need to be sure that what we are doing 
is sustainable. We need to be funding the priorities of the 
host country, but also ensure that the host country has a 
vested interest in seeing projects succeed. And USAID must take 
the lead in prioritizing those projects.
    As the number of U.S. personnel in Afghanistan decreases, 
we must have a clear plan how to remotely monitor existing and 
continuing projects. And I hope today we can hear more as to 
whether those efforts have been working and how we can improve 
on them.
    We have spent a tremendous amount of blood and treasure in 
Afghanistan, and as we continue to pour billions of dollars 
into the region, we have to have a clear strategy that can 
adapt to the kinetic security situation on the ground. We owe 
it to the men and women who have given their lives to protect 
the security of this country and to the future of the Afghan 
people.
    And I yield back. Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Amen. Thank you so much, Mr. Deutch.
    I now would like to yield to the other subcommittee 
chairman, Mr. Salmon, for his opening remarks.
    Mr. Salmon. Thank you, Chairwoman Ros-Lehtinen, for working 
with me to convene this important joint subcommittee hearing on 
U.S. foreign assistance to Afghanistan and Pakistan.
    As we all know, Afghanistan and Pakistan make up one of the 
most complex foreign policy and security challenges we have. 
Subsequently, they are one of the largest recipients of U.S. 
foreign assistance. But even after the billions of dollars we 
have spent following the 9/11 attacks, I still have serious 
concerns about the administration's strategy for the region, 
about the effectiveness and efficiency of our aid programs, and 
about our partner governments' alignment with our interests and 
values.
    As chairman on the subcommittee on Asia and the Pacific, I 
will focus my attention and my remarks on Pakistan, which 
presents a number of difficulties for our foreign assistance 
partnership.
    Conduct by the Pakistani Government raises serious doubts 
about the country's trustworthiness as a partner for peace and 
change in the region. And too often they seem to do the bare 
minimum to keep the money flowing without committing to any 
real change. Today, I look forward to hearing from our 
administration witnesses about the value of our programs in the 
region, and their strategies for meaningful and lasting 
improvements.
    One area of concern in Pakistan is foreign military 
financing, FMF. It has been a contentious topic in Congress 
recently, especially with the administration's recent attempt 
to subsidize, with taxpayer dollars, the sale of F-16s to 
Pakistan. Fortunately, an effort paused by the Senate. Many 
Members of Congress, including me, seriously question the 
judgment and timing of such a sale.
    Additionally, India/Pakistan tensions remain elevated, and 
some question whether the F-16s could ultimately be used 
against India or other regional powers, rather than the 
terrorists, as Pakistan has asserted. I would ask the panel to 
clarify the underlying purpose and timing of the intended sale, 
and how is it in the best interests of the United States?
    Despite giving Pakistan enormous amounts of counterterror 
assistance over the years, over $25 billion since 9/11, 
terrorist organizations continue to operate with impunity in 
Pakistan. Pakistan has used terror as a tool of statecraft and 
terrorist proxy groups where the Pakistani military have 
carried out fatal attacks inside India. The Pakistani Taliban 
is showing signs of unification. Pakistan argues that this may 
work to its advantage, but the United States maintains that 
this is detrimental to regional security efforts.
    This is just one example of how Pakistan's priorities and 
values regarding terrorist groups are seriously misaligned with 
our own.
    In another instance of our priorities not aligning, the 
Pakistanis are holding Dr. Afridi, who aided the United States 
in finding and eliminating bin Laden, on dubious charges. Like 
many of my colleagues, I am deeply disappointed we have not 
been able to find a solution to his imprisonment. I look 
forward to hearing the panel's comments on these issues.
    USAID has prioritized health and education programs in 
Pakistan. An example of the challenges that exist was 
demonstrated just last week when the police escorts of 
healthcare workers distributing vaccines were killed. 
Afghanistan and Pakistan are the only places in the world with 
an ongoing polio endemic. And according to Pakistan's own 
press, upwards of 45 percent of Pakistanis are intellectually 
stunted due to malnutrition. While that number is distressing 
in and of itself, it also has the potential to add to the 
region's instability and should remain a top priority for our 
aid efforts.
    After spending billions in U.S aid in Afghanistan and 
Pakistan, it is important to ask, exactly how much leverage has 
our investment really bought us? Are we undermining our own 
security interests by supporting a military that props up 
terrorists? Have we bolstered the wrong leaders, complicating 
meaningful reform efforts?
    We have not always focused on this carrot approach to aid 
in Pakistan. In the 1990s, we tried the stick approach with 
sanctions which were largely ineffective at curbing Pakistan's 
nuclear programs. But the stick approach after 9/11 did work, 
at least for a time, resulting in the capture of some notorious 
terrorists.
    I am concerned that our current strategy lacks resolve and 
clarity, and as a result, taxpayer dollars are not being used 
in a way that furthers our national security interests and 
protects our citizens.
    I look to our panel's testimony in justification for both 
the nearly $2 billion in funding this year and the strategy for 
these relationships going forward.
    And I yield back the balance of my time.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    And I would like to recognize the gentleman in the audience 
who is the Afghan Ambassador to the United States. And we 
welcome you here today, sir. Thank you.
    I now would like to turn to our other ranking member, Mr. 
Sherman, for his opening statement.
    Mr. Sherman. I thank the chairwoman and the chairman for 
holding these hearings.
    With the tragedy of September 11th, we understood that 
Afghanistan can have a profound effect on the United States. We 
have lost 2,300 service members killed, over 20,000 wounded. We 
spent $100 million in foreign assistance, and our total costs 
have exceeded $1 trillion, including our military costs. 
Pakistan is a nation of 180 million people with a history of 
terrorist activities, roughly 100 nuclear weapons, and a very 
confused body politic.
    The administration's requested $740 million in assistance 
for Pakistan, more than $265 million of this is for military 
assistance. As noted by the chairman of the Asia subcommittee, 
we have got to be concerned what military assistance and 
whether the F-16s constitute the least expensive, most 
efficient way for the Pakistani Air Force to go after the 
terrorists, and the least disruptive weapon system to the 
balance of power between India and Pakistan. We need to offer 
to Pakistan those weapon systems well crafted to go after 
terrorists and not crafted for a war with India.
    I join also the chairman of our subcommittee on the 
importance of Dr. Afridi, and would not be surprised if 
Congress made a big portion of this aid contingent upon the 
release of Dr. Afridi and his family.
    One question I hope the gentlemen answer for us 
historically, and that is, why we did not install in Kabul a 
government acceptable to Islamabad back 15 years ago, or 
whether there are elements in the Pakistani military who look 
at the pushed-on population of both countries and have reached 
the conclusion that they want a weak and divided Afghanistan, 
under any circumstances, as a matter of Pakistani national 
unity and national security.
    Many Americans wonder why we are still involved in 
Afghanistan. Many say why don't we just turn our back on the 
greater Middle East? I should point out that we were under-
involved and under-responded when our Embassy was bombed in 
East Africa, both Embassies. We under-responded when the U.S. 
Cole was hit in Yemen, and then we faced 9/11. We can and did 
and may again ignore the Middle East, but the Middle East will 
not ignore us.
    The way for a terrorist organization to hit the--to be in 
the vanguard of some mythical world conflagration is to attack 
the United States. We have to win over the people of the Muslim 
world, and in order to do that, we need to speak their 
language. That is why many on this committee have heard me talk 
of the importance of broadcasting in the Sindh language of 
southern Pakistan, and in the other languages where for $1 
million, $2 million a year we can reach out to huge segments of 
the Pakistani population.
    But not only the linguistic language, but the language of 
Islam must be understood by our State Department. I worry that 
for every--that there is a lot more understanding of Metternich 
and the European power moves and diplomacy of the 1800s in the 
State Department than there is of the Koran.
    We will never pronounce the words of the Sindhi language 
without an accent. We will never be the last word in Islamic 
interpretation. But the fact that we don't have a half a 
dozen--we don't have anyone in the State Department whois paid, 
not to issue a fatwa, but to read one and to understand the 
subtle allusions to particular events in the life of the 
prophet indicates that we don't speak their language, aren't 
learning their language, and are not in a good position to win 
what will be a continuing effort against certain elements in 
Islam.
    Finally, on human rights, the brother of a dear friend of 
mine, Anwar Leghari was assassinated in Sindh. Other Sindhi 
activists, including Kausar Ansari, have been detained. And it 
is important that we speak out for human rights, the rights of 
religious minorities in Pakistan. The VOA is asking us for 
another $16 million, yet they have not detailed how they are 
going to reach out to the Muslim world in the various different 
languages that they should be communicating in.
    And my time has expired. I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Ranking Member 
Sherman.
    And now we would like to turn to Mr. Rohrabacher for his 
opening statement.
    Mr. Rohrabacher. Thank you very much, Madam Chairman. I am 
very upset today, more than normally. There it is. The fact 
is----
    Ms. Ros-Lehtinen. Drinking a lot of Red Bull?
    Mr. Rohrabacher. And I am sorry if I--and I will try to 
contain myself.
    The State Department and this administration has again 
decided to slap the face of a person who we rely upon to defeat 
radical Islamic terrorism. The administration has again 
targeted a prominent enemy of radical Islamic terrorism in 
order to humiliate to his own people. I am talking about this 
administration's denial of a right to the Vice President, the 
Senior Vice President of Afghanistan, to come here and talk to 
the Congress. This is a slap in the face to the Congress as 
well.
    Who is going to trust us to be on our side in the fight 
against radical Islamic terrorism if we treat those people who 
are allies in this way? Yes, he is an imperfect person. The 
fact is that he is fighting--that Vice President Dostum of 
Afghanistan happens to have been essential in the defeat of 
Taliban and al-Qaeda forces after 9/11.
    Shame on this administration for that. Shame on them for 
slapping the face of other people trying to help us defeat the 
radicals who would kill our own people.
    Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, sir.
    Dr. Bera.
    Mr. Bera. Thank you, Madam Chairwoman.
    And, again, I thank the chairman and the ranking members 
for this hearing. I look forward to the testimony of the 
witnesses as well.
    When you think about South Asia, the interconnected nature 
obviously is very complicated, you know, between Afghanistan, 
Pakistan, India, and increasingly China's presence in South 
Asia as well. You know, I look forward to listening to the 
witnesses.
    As our mission changes in Afghanistan, you know, and as the 
missionhas changed over the last decade, the reduction in 
foreign troops and their presence really has left an economic 
hole in Afghanistan. And as our mission changes, you know, I do 
have real worries about Afghanistan's economy and the impact 
there.
    India has had a major presence in Afghanistan in terms of, 
you know, pumping over $2 billion into major projects in 
Afghanistan. The complexity of India's role in Afghanistan 
posts our change in mission, you know, is going to be important 
to weigh vis-a-vis Pakistan as well. So I look forward to 
hearing that.
    Thank you.
    Ms. Ros-Lehtinen. Thank you, Dr. Bera.
    Seeing no other requests for time, I will now introduce our 
panelists.
    First, we would like to welcome back the Honorable Richard 
Olson, thank you, sir, who is the special representative for 
Afghanistan and Pakistan at the U.S. Department of State. 
Ambassador Olson previously served as the U.S. Ambassador to 
Pakistan and the coordinating director for development and 
economic affairs at the U.S. Embassy in Afghanistan. Thank you, 
sir.
    And thank you also as we welcome back the Honorable Donald 
L. Sampler, who is assistant to the administrator in the Office 
of Afghanistan and Pakistan Affairs, OAPA, at USAID. Mr. 
Sampler previously served as senior deputy assistant to the 
administrator in that agency, and he has traveled to 
Afghanistan and Pakistan over 60 times since 2001 and lived in 
Kabul for several years.
    As I had said, your prepared statements will be made a part 
of the record. Please feel free to summarize.
    And we will begin with you, Mr. Olson.

    STATEMENT OF THE HONORABLE RICHARD OLSON, U.S. SPECIAL 
REPRESENTATIVE FOR AFGHANISTAN AND PAKISTAN, U.S. DEPARTMENT OF 
                             STATE

    Mr. Olson. Thank you, Madam Chair.
    Chairwoman Ros-Lehtinen, Chairman Salmon, Ranking Member 
Deutch, Ranking Member Sherman, and members of both 
subcommittees, thank you for inviting me to appear before you 
today to discuss Fiscal Year 2017 foreign assistance priorities 
for Afghanistan and Pakistan.
    First and foremost, I want to commend the men and women of 
the armed services, the foreign service, the development 
agencies, and intelligence community stationed in Afghanistan 
and Pakistan. I am honored and humbled to have served with them 
in Kabul and Islamabad over the past 4 years.
    My written testimony, which has been submitted for the 
record, touches on many of the topics that I expect we will 
discuss today, including updates on Afghanistan and Pakistan, 
prospects for peace and reconciliation, and our budget 
priorities.
    With regard to Afghanistan, a great deal has been achieved 
over the past 14 years. However, Afghanistan faces very real 
and daunting challenges, challenges that affect our own 
national security. Afghanistan will need our support as it 
continues to strengthen its institutions and become 
increasingly self-reliant. It is essential that we help prevent 
it from ever again serving as a safe haven for international 
terrorists that would threaten the United States.
    This year, two vital international donor conferences aimed 
at shoring up Afghanistan's security and development will take 
place in Brussels and Warsaw. Robust U.S. and international 
financial support and sustained diplomatic engagement are 
critical to ensuring that the Afghan Government is able to 
enact needed reforms, spur a stagnant economy, and consolidate 
the gains made over the past 14 years.
    Our relationship with Pakistan, a growing country with more 
than 190 million people, a nuclear arsenal, terrorism 
challenges, and a key role to play in the region will remain a 
critical one. In Pakistan, we see the government in a concerted 
and difficult fight against terror groups that threaten 
Pakistanis. But, unfortunately, Pakistan does not take 
equivalent steps against groups that threaten its neighbors.
    Our core initiatives in Pakistan include promoting economic 
growth, countering terrorism, fostering regional stability, and 
promoting the consolidation of democratic institutions.
    Let me emphasize. We have repeatedly and, frankly, 
underscored with the most senior leaders of Pakistan that the 
Haqqani Network must be part of their wider counterterrorism 
operations in order to keep their commitment not to 
discriminate between terrorist organizations. Effective 
engagement with Pakistan is grounded in our national interest.
    We have carefully calibrated our Fiscal Year 2017 budget 
request, balancing global funding constraints and our interest 
in stability in Afghanistan and Pakistan. Our overall combined 
request is just under $2 billion, with $1.25 billion requested 
for Afghanistan and $742 million for Pakistan. While this is a 
14-percent reduction from the President's Fiscal Year 2016 
request, and an approximate straight line from Fiscal Year 2015 
enacted levels, these levels will enable us to stay engaged in 
a critically important region, while also responsibly 
rightsizing our commitments.
    We believe we are on the right track to achieve our goals 
in the region, but we fully recognize serious challenges 
remain.
    Thank you for the opportunity to address your 
subcommittees. I look forward to our discussion today and 
welcome any questions you may have.
    [The prepared statement of Mr. Olson follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
           
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much.
    Ambassador Sampler.

   STATEMENT OF MR. DONALD L. SAMPLER, JR., ASSISTANT TO THE 
ADMINISTRATOR, OFFICE OF AFGHANISTAN AND PAKISTAN AFFAIRS, U.S. 
              AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Sampler. You are very kind.
    Chairwoman Ros-Lehtinen, Chairman Salmon, Ranking Members 
Deutch and Sherman, and members of the subcommittees, thank you 
for inviting me to discuss the administration's Fiscal Year 
2017 budget request for the U.S. Agency for International 
Development's assistance to Afghanistan and Pakistan. It is 
again an honor to appear before you with Rick Olson, the 
special representative.
    I too will begin my testimony by recognizing the sacrifices 
made by our sons and daughters and their families in the 
military and in the civilian agencies who have served and 
sometimes died in Afghanistan and Pakistan. Their tireless 
efforts alongside those of our allies, as well as of our 
Pakistan and Afghan brothers and sisters, make our work today 
possible. I have also submitted written testimony for the 
record that gives considerable detail about the work that USAID 
has done and expects to continue. But in the interest of time, 
I will summarize.
    USAID's mission is to partner to end extreme poverty and 
promote resilient Democratic societies, while advancing 
America's own security and prosperity. I can think of no other 
region in the world today where this mission is more relevant.
    The President's Fiscal Year 2017 budget request for 
Afghanistan and Pakistan reflects our Nation's efforts to 
advance political stability and economic prosperity, which will 
further strengthen and advance our peaceful partnerships with 
both countries.
    Over the past several years, with vital support from 
Congress, we have taken firm steps to ensure that our 
assistance in the region is more efficient, more effective, and 
impactful. No one, least of all me, will say that our work in 
these two complex countries is easy or without challenges. 
Wracked with conflict and instability for much of the last 
three decades, the region remains one of the least economically 
integrated in the world, with the majority of its human capital 
and economic potential still untapped.
    Despite the challenges, on behalf of the American people, 
we have accomplished a great deal. There is a growing 
understanding and appreciation of our support in the 
communities where USAID's programs have had an impact. USAID 
has worked to increase awareness of our assistance, for 
example, in Pakistan. Our most recent polling data showed that 
an awareness of U.S. assistance among Pakistani citizens has 
increased over the 3 years from 34 percent to 47 percent.
    Whether it is a shop owner in Lahore, whose sales have 
increased because of more reliable electricity, a result to 
USAID's efforts to add over 2,300 megawatts of electricity to 
the grid; or whether it is an Afghan seed provider who now, 
because of USAID programs, is linked to specialty baking 
industries around the world, millions of people in the region 
have longer life spans, increased access to health and 
education, improved economic opportunities and brighter futures 
because of America's assistance in their countries.
    Sustainable development will require the regions leaders to 
make some hard and fundamental choices. Our assistance programs 
act as catalysts and incentive to promote that change and are 
delivering measurable results that contribute to this potential 
transformation. The Fiscal Year 2017 request reflects our 
continued push toward expanding progress that will build local 
capacity in facilitating private sector growth, access to 
essential social services, and transparent governance that, in 
the long term, can undermine the support for insurgent groups 
and help stabilize the region.
    There are inherent risks in doing business in many parts of 
the world where USAID operates. But USAID around the world 
prioritizes the effective and accountable use of taxpayer 
dollars. There is no acceptable level of fraud, waste, or abuse 
in any of our programs. All of our projects receive proper 
monitoring and oversight, and we adjust our efforts as 
necessary to respond to dynamic security and operational 
environments where we work.
    In addition to standard oversight procedures and measures 
implemented worldwide, specifically in Afghanistan and 
Pakistan, our project managers rely on multiple data sources to 
provide information on the progress and the effectiveness of 
USAID activities. We triangulate this information to determine 
whether adjustments to programming are required. We have also 
taken specific measures to prevent funds from being diverted 
from their development purpose to malign actors. Since 2011, 
our vetting efforts in Afghanistan have kept over $660 million 
from being awarded to organizations who did not meet our 
vetting standards.
    As USAID looks to 2017 and beyond, the agency is committed 
to making every effort to ensure that our programs in 
Afghanistan and Pakistan are sensible, sustainable, and 
developmentally sound. And we will continue to support our 
national security objectives in this complex but important part 
of the world. It is an honor to be able to share with you today 
a small glimpse of what USAID is doing in that regard.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Sampler follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much to both of you.
    Ambassador Olson, last week's terrorist attack in Kabul 
highlighted the limits of our policy in Afghanistan, especially 
our restricted rules of engagement. The Taliban is increasingly 
using terrorism as a tool as it targets and adapts to the 
Afghan military and coalition forces. But as General Campbell 
testified in February, U.S. forces are not allowed to target 
the Taliban in an offensive manner to get ahead of the attacks 
like the ones we saw last week.
    Can you explain why U.S. forces are not allowed to target 
the Taliban? And is the administration discussing whether the 
Taliban should be authorized for targeting in the future?
    Mr. Olson. Thank you, Madam Chair.
    First of all, let me join you in robustly condemning the 
attack of 19 April. These clearly undermine the efforts to make 
peace in the region. And I would just add that we have pressed 
the Government of Pakistan on its commitment not to 
discriminate amongst terrorist groups. We believe there across 
the region must be zero tolerance for safe havens.
    With regard specifically to the question of combat 
authorities, I think I would have to refer you to my colleagues 
in the Department of Defense for a more detailed discussion of 
what they are seeking and the state of deliberation on those 
questions. But I would emphasize that the administration's 
position, the President's position, is that our combat 
operations in Afghanistan ended in December 2014. And so we 
will continue to work on a policy on that basis.
    Ms. Ros-Lehtinen. Thank you very much.
    President Ghani made a good-faith effort to engage Pakistan 
and enlist its assistance in eliminating the Taliban from 
within Pakistan's borders. And yesterday, he called again on 
the Pakistani military to eliminate this threat.
    What are we doing to press Pakistan to take action against 
the Taliban? And besides giving it safe haven, what kind of 
support is Pakistan providing to the Taliban?
    Mr. Olson. Madam Chair, I think that Pakistan is at a 
strategic crossroads. We have made very clear at the highest 
levels that we believe, first of all, that Pakistan has made 
great progress over the past couple of years in addressing its 
domestic counterterrorism priorities. That is to say, it has 
taken robust action against those groups, principally the TTP, 
the Pakistani Taliban, that threaten Pakistanis.
    Their stated policy, which we agree with, is not to 
discriminate amongst terrorist groups. We believe there is 
considerable room for improvement in the application of that 
policy on the ground. And we believe, in particular, that 
Pakistan has not taken as vigorous action against groups that 
threaten its neighbors as it has against those that threaten it 
domestically. So Pakistan has also been very helpful in the 
reconciliation process, but I do believe that there is a 
strategic choice right now. With the Taliban having refused to 
come to the table, it seems to us that it is time to address 
more robustly the question of groups that threaten Afghanistan.
    Ms. Ros-Lehtinen. Thank you, sir. And I have two remaining 
questions. One is about the F-16s sale to Pakistan. I think 
that we need to leverage our military sales to Pakistan in 
order to get some more cooperation within the region.
    Can you please update us on the status of the F-16s sale, 
and how would you describe our ability to leverage our aid to 
Pakistan?
    Mr. Olson. Madam Chair, the administration is supportive of 
the F-16 sale to Pakistan. This has been developed between our 
military coordinating groups over the course of time. It is 
consistent with our overall program of support for the Pakistan 
military, which is based on counterinsurgency and 
counterterrorism.
    The Pakistanis have developed a precision strike capability 
that they use in the F-16s they have right now to take out 
targets. As I mentioned before, these are principally the 
Pakistani Taliban. But we think that that is a good thing.
    The Pakistani Taliban has been involved in attacks against 
Americans at FOB Chapman in Afghanistan in 2009, and indeed in 
supporting the Times Square bomber. So we applaud the actions 
that the Pakistanis have been taking against their domestic 
terrorism threat, even as we call upon them to take more robust 
action against those groups that threaten their neighbors.
    Ms. Ros-Lehtinen. Thank you. And lastly, when I was in 
Afghanistan last year, officials described the SIGAR report of 
a $47-million gas station as inconsistent with their 
understanding of the situation. What can you tell us about that 
gas station, how much did it cost, what is the status of it? Do 
they give free towels and detergent or anything good? Car wash?
    Mr. Olson. Well, my understanding, Madam Chair, is that the 
total number referred to several different projects, including 
the rehabilitation of the Sheberghan gas fields, some of which 
were funded through, I believe, through USAID, but much of 
which was funded actually through the Department of Defense and 
the TFBSO operations.
    I was involved in this when I was in Afghanistan, and I 
think we would have to get you a more detailed breakdown for a 
response.
    Ms. Ros-Lehtinen. Thank you so much.
    Mr. Deutch is recognized.
    Mr. Deutch. Thanks, Madam Chairman.
    It has been reported that refugees of Afghan origin 
represent the second largest group of refugees trying to enter 
Europe. Just a couple of questions there.
    First, what are the numbers of refugees? And secondly, 
howis the U.S. responding both politically and, Mr. Sampler, 
programmatically as well?
    Mr. Olson. Thank you, Ranking Member Deutch. With regard to 
numbers, I think I will have to get back to you on that. Our 
understanding is that it accords with yours, that Afghans have 
represented a significant number of refugees that have shown up 
in Europe.
    I think it is worth noting that our impression, and we 
don't have hard numbers, but certainly our impression is that 
many of them are actually coming from other countries than 
Afghanistan. In other words, they are coming from countries 
where they have been resident for some period of time. But that 
is not to suggest that there aren't ultimately some Afghan 
causes for this.
    I think the downturn in the economy, the transition, the 
economic transition that accompanied the security transition in 
2014 is still being felt. We have been at a diplomatic level 
very supportive of our European allies' approaches to the 
Afghan Government to see if there are ways that we can assist. 
The Europeans are seeking arrangements for the return of those 
who don't qualify for refugee status, and we are supportive of 
that.
    And, of course, ultimately I think this highlights the 
importance of continuing engagement on the development side 
with Afghanistan to strengthen the Afghan economy so that it 
can absorb the population coming on the market.
    Mr. Deutch. But, Mr. Sampler, and then I have a followup, 
please.
    Mr. Sampler. Yeah, please. The--very specifically, $50 
million in Fiscal Year 2015 in previous year money is allocated 
specifically to helping the Afghans address this issue. I would 
define the issue as having two components that they have to 
address. The most fundamental, of course, is growing their 
economy. If there is a silver lining in this issue, it is that 
the pressure on the economy is being driven by 200,000 young 
Afghans graduating from high school and entering the job force 
every year. That is a positive thing, but only if there can be 
jobs made available for them.
    So this $50 million is intended to help grow the economy 
through internship programs, which will allow some of these 
students to move straight from high school into employment, as 
well as the National Solidarity Programme that the Afghans 
themselves have designed to generate employment and economic 
growth across the country.
    Second point I will make that they also have to address is 
strategic communications. If young Afghans graduating from high 
school now with critical thinking skills, access to the 
Internet, and understanding that there is a bigger world out 
there, which they didn't have in the past, that understanding, 
that access, and that critical thinking is going to lead them 
to make very hard decisions about do they stay or do they go. 
So the Afghans must do a better job at messaging to their own 
young age bulging population that there are prospects for you 
to stay in Afghanistan.
    Mr. Deutch. Well, if we don't--if we think that, Ambassador 
Olson, that the significant number of those, the majority of 
those are coming from other countries where they have lived, 
are we--I guess again for both of you, if we have seen an 
uptick, is it because they are looking at what is happening on 
the ground in Afghanistan realizing that they are not going 
back? And shouldn't there be a coordinated effort to address 
this refugee issue, given the numbers and regardless of where 
they are coming from, since they are ultimately all--they all 
originated in the same place?
    Mr. Olson. Well, if I may, Congressman, I think these are 
excellent questions. And I think we are still in the process of 
working with our European allies to identify what exactly the 
nature of these movements are. I mean, obviously the immediate 
response, and this is outside of our purview here, but has been 
to be supportive of our European friends and allies. I know my 
boss, Secretary Kerry, is extraordinarily focused on this 
topic. But I think these questions probably do require a 
greater degree of analysis and beyond the immediate sort of 
crisis management we need to be thinking about how we can 
respond.
    Mr. Deutch. I couldn't agree more. And I would urge that 
that analysis, to the extent that it is being done, be done as 
quickly as possible and that you share it with the members of 
this committee.
    Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. You are welcome very much, Mr. Deutch.
    Mr. Salmon.
    Mr. Salmon. Thank you.
    Pakistani Dr. Shakil Afridi assisted U.S. efforts in 
tracking down Osama bin Laden, and later was jailed for 23 
years for alleged links to terrorist groups. Congress has, in 
the past, withheld aid to Pakistan to encourage the release of 
Afridi. What progress has been made on the effort, and what 
more can we do to aid this friend of the United States in his 
freedom? Should we look for any other possible restrictions on 
aid?
    Mr. Olson. Thank you, Mr. Chairman. And let me say that we 
share your sense of outrage with regard to the plight of Dr. 
Afridi. I can assure you that we have raised this issue at the 
very highest levels of our Government. It has been the subject 
of very direct conversations. We have requested the release of 
Dr. Afridi, and we continually request updates on his health 
and his status.
    So far, I have to say we have not--those result--those 
approaches have not yielded any results, but we will continue 
to raise them. There are already conditions, as you know, on 
assistance. And we make the point to our Pakistani colleagues 
that the very strong sentiment on Capitol Hill in particular, 
which is completely shared by the administration.
    Mr. Salmon. If they are listening today, I just want to 
tell them for the record that as I talk to different members 
about financial support, financial aid for Pakistan, it is the 
single biggest impediment to members wanting to be supportive. 
And if they are truly interested in furthering relations, 
strong relations with us, I would really hope that they take a 
second and a third and a fourth look at the incarceration of 
this man and look to his expedited release.
    One of the biggest drags on Pakistan's economy has long 
been corruption. In Transparency International's 2015 
Corruption Perception Index, Pakistan ranked 117 out of 168 
countries. Prime Minister Nawaz Sharif was one of the world 
leaders identified in the recently leaked Panama Papers. How is 
the United States assisting Pakistan in reducing corruption, 
and how do we ensure our own programs and activities do not 
suffer because of corruption within Pakistan?
    Mr. Olson. Thank you, Mr. Chairman. With regard to the 
question of the Panama Papers, we actually would not, the 
administration would not have any comment on these allegations 
that have surfaced. Globally, of course, we are in favor of 
greater financial transparency. With regard to corruption 
efforts in Pakistan, there have been, I think, an uptick in 
anticorruption efforts, particularly in conjunction with some 
of the military operations that have been taking place in the 
settled areas of Pakistan. There was a strong anticorruption 
drive in Karachi at the same time that there were operations to 
round up miscreants.
    These are primarily conducted by the National 
Accountability Bureau, and, of course, as long as these 
investigations are done in accordance with due process, the 
U.S. Government is supportive, and we do have some links with 
the National Accountability Bureau. I think I would probably 
defer to my colleague, Larry, if he had anything to say on the 
assistance piece.
    Mr. Sampler. Congressman, just to your specific question 
about how do we ensure this doesn't affect our programming, our 
programs are very aggressively monitored and overseen. We asked 
our own inspector general, in fact, to create a hotline, and 
there is now the equivalent of a 1-800 number in Pakistan that 
implementing partners, suppliers, and even Pakistani citizens, 
are encouraged to use. It was intended to use that hotline to 
report on our own programming, but it has become much broader, 
and this anticorruption hotline is actually quite popular in 
Pakistan.
    I am reasonably confident the programming we are doing is 
not just safeguarding our own programs, but it is serving as an 
example to the government and the governments within Pakistan 
as well.
    Mr. Salmon. Thanks. I am out of time.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Salmon. Mr. 
Sherman.
    Mr. Sherman. Thank you. I want to join with the ranking 
member of the Asia Subcommittee and everyone else in Congress 
in talking about Dr. Afridi. I think the Pakistanis understand 
that you will give them the money whether they turn Afridi over 
or not, but I hope you convey that Congress probably won't, and 
next year, I would suggest Congress is much less likely to.
    So what would happen if we simply didn't provide the aid 
until Dr. Afridi and his family were released? We could 
reprogram that money to other parts of the war on Islamic 
extremist terrorism, and defend ourselves perhaps much more 
effectively than aid through Pakistan. What would be the 
Pakistani response if we cut all aid until Dr. Afridi was 
released?
    Mr. Olson. Well, Congressman, first of all, let me say that 
your message has been received loud and clear, and we will 
indeed convey it as we have conveyed it, to the Pakistanis on 
Dr. Afridi. I would just respectfully suggest to you that our 
assistance program is crafted to advance our national 
interests.
    Mr. Sherman. There are many things we could do with that 
money that don't involve giving it to the people who are 
holding Dr. Afridi. Your focus is Afghanistan and Pakistan. 
There are things we could do in the war on terrorism outside 
your jurisdiction that could perhaps do more to safeguard 
America and its interests. And the Pakistanis shouldn't think 
that we have unlimited resources so we might as well spend them 
on anything that seems useful.
    I want to shift to Sindh. Vice Chairman Kehar Ansari has 
been kidnapped, arrested. He is the vice chairman of the 
leading Sindh party. We have got assassinations that have not 
been investigated, including Anwar Laghari, but also a host of 
others, Mr. Raja Dahir, Mr. Samiullah Kalhoro, Mr. Sirai 
Khuhawar, and Mr. Maqsood Qureshi. Is this something you are 
bringing up in Islamabad or just leaving to the Karachi 
Consulate?
    Mr. Olson. Well, first of all, our Consulate in Karachi is 
tracking this closely but with the full support of our Embassy 
in Islamabad----
    Mr. Sherman. Have you personally raised either Mr. 
Laghari's case or Mr. Ansari's case? Well to how high a level 
have you personally conveyed it to Pakistanis?
    Mr. Olson. Yeah. The Laghari case we have raised at the 
provincial level, and----
    Mr. Sherman. So you personally haven't engaged with the top 
officials in Islamabad on these issues?
    Mr. Olson. No, sir, I have not engaged on them.
    Mr. Sherman. Okay. I want to go on to another question. The 
administration routinely declined to certify that Pakistan is 
cooperating with the United States in counterterrorism against 
the Haqqani Network and others, and that it is not supporting 
terrorist activities against the United States or coalition 
forces in Afghanistan.
    Why is the administration unwilling to make that 
certification? And does it make sense to just waive that and 
send them the money even if you can't make the certification?
    Mr. Olson. Congressman, we believe that all of the 
programs, again that we are talking about, are in our national 
interests, and we have to balance the national security 
interests of the United States and----
    Mr. Sherman. But can you say that they are not cooperating 
with the United States on counterterrorism and they are not 
supporting terrorist activity? What are the facts that make it 
impossible to make these certifications?
    Mr. Olson. We have long had concerns about the fact that 
despite Pakistan having a stated policy of not discriminating 
between terrorist groups in the application of that policy, 
they have, in fact, not moved against actors that threaten 
their neighbors. And we have raised this with them very 
directly, and we share the concerns that have been expressed 
about the Haqqani Network and also about Lashkar-e-Tayyiba, 
Jaish-e-Mohammed, and other groups.
    Mr. Sherman. My time is expired. Thank you.
    Ms. Ros-Lehtinen. I don't want to cut you off if you have 
another question.
    Mr. Sherman. Madam Chairman, that would be a dangerous 
precedent----
    Mr. Ros-Lehtinen. Okay. You are right. All right. What was 
I thinking? Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Madam Chairman. 
Obviously from my opening 1 minute, I am very disturbed about a 
major slap in the face to someone who is Vice President, Senior 
Vice President of Afghanistan, who was instrumental in 
defeating the Taliban and al-Qaeda forces shortly after 9/11, 
and I just don't understand that. But it seems to be a pattern 
in this administration where they go after the people who are 
the most friendly to the United States and use a very soft 
approach and conciliatory approach toward those who would 
slaughter Americans by the thousands if they had a chance.
    Let's go to Dr. Afridi and why we have to provide F-16s and 
military equipment to a country, that Dr. Afridi's imprisonment 
continues to be basically an act by the Pakistani Government to 
basically thumb their nose at the United States and the people 
of the United States.
    Here is the man who permitted us with his activity to bring 
to justice the criminal who slaughtered, the criminal terrorist 
who helped slaughter, not helped but planned the slaughter of 
3,000 Americans on 9/11, and here we can't grant a passport to 
the man who helped defeat the radical Islamists in Afghanistan, 
but we are going to give aid, continue to give aid to the 
country that holds Dr. Afridi, the person who helped us defeat, 
or bring to justice the man who murdered our people, that we 
can't even demand that he be freed from the dungeons he is 
being held in.
    That makes no sense. Can you make some sense out of that 
for me?
    Mr. Olson. Thank you very much, Congressman. First of all, 
with regard to the question of visas, privacy laws prohibit us 
from commenting on the details of any particular consular 
application, but I can tell you that First Vice President 
Dostum is reported to have decided not to travel to the United 
States in order to remain in Afghanistan to deal with the 
security situation, especially in the----
    Mr. Rohrabacher. You don't believe that he really decided 
that on his own? I am happy to see that you are towing the 
line. It is your job to be here and say that to us, but nobody 
buys that.
    I mean, the bottom line is we have slapped him in the face. 
Let me just put it for the record, General Dostum, now Vice 
President Dostum, was pivotal after 9/11 in organizing the 
Northern Alliance. He put together a force that defeated the 
Taliban. When his forces, by the way, removed the Taliban from 
Kabul, there were only 200 American troops on the ground at 
that time. That was a very hard-fought battle. He was in front 
of the troops most of the time leading the way. This is a very 
brave man and a very yes, flawed man, no doubt. We are all 
flawed.
    And what they are saying that he committed, the horrible 
crime he committed was in Afghan tradition when someone 
surrenders, they surrender and pledge not to try to overpower 
their captors. The captors pledge not to kill the people they 
have captured. That is so ingrained in the Afghans that 
otherwise their whole history would be killing all the 
prisoners.
    After the Taliban forces were defeated in one of the first 
major battles, General Dostum had hundreds of prisoners who had 
surrendered. They were a holed up in a French fort. I happened 
to have visited that fort. We had one CIA agent there trying to 
figure out what was going on. And the prisoners broke their 
pledge, broke the word, committed the atrocity of rising up 
against their captors and murdered a number of General Dostum's 
men, as well our own CIA agent. And yes after that, Dostum took 
more lives to defeat, more lives to defeat, those forces who 
were now in charge of that fort. And once they captured those 
men again, he didn't know what to do with them. He put them 
into container trucks and drove them off somewhere, and, yes, 
they probably died a horrible death.
    They made the decision to rise up against their captors. 
They made the decision to kill an unarmed American CIA agent 
who was there trying to get a figure about what was going on. 
And for this administration to withhold a visa from him and 
slap him in the face because of that, knowing that he helped 
defeat the people who slaughtered 3,000 Americans, is insane.
    And then we go to Pakistan, and they have Dr. Afridi in 
jail. And the Pakistanis, we know, what do they use their own 
weapons for? To kill the Baloch by the thousands and to attack 
their neighbors by supporting terrorist incursions into India.
    One last question. Okay. What more can Pakistan do that 
would have us cut off the military aid? What other evil deeds 
could they possibly do that would put us to the point where we 
won't any longer give them the weapons they need to kill 
innocent people and undercut the security of the region?
    Mr. Olson. Congressman, with regard to Vice President 
Dostum, we are certainly well aware of the historic role that 
he has played, and let me assure you that we do treat the Vice 
President, as the First Vice President of Afghanistan with all 
the respect that his office carries. And we are in touch with 
him at the appropriate level. As I say, I cannot comment on the 
particulars of the status of the visa because of Privacy Act 
considerations.
    With regard to Pakistan, as I have said, I think Pakistan 
is at a strategic crossroads, and I think it needs to make a 
choice. It has been helpful to the United States and the 
international community in trying to bring the Taliban to the 
table for reconciliation talks, but the Taliban have rejected 
that. And our view is that the Taliban need to face the 
consequences of their decision. So it does seem to me that 
Pakistan right now has some very serious challenges and 
difficult decisions to make.
    Mr. Rohrabacher. What about the Pakistanis suffering the 
consequences of their decisions? No. We are just going to keep 
the money flowing no matter what they do. It is debatable 
whether or not they have encouraged the Taliban leaders that 
you are talking about to actually go and try to do something or 
whether they are financing the Taliban leaders with our money. 
This is insanity. This administration has a--it is not just 
this administration. This started when we forced Karzai down 
the throats of the Afghan people, a man with no popular support 
whatsoever, a man who has family deeply involved with various 
criminal activities. We laid the groundwork before this 
administration, and this administration continues this type of 
insanity that is leading to many deaths by Americans throughout 
this country.
    Ms. Ros-Lehtinen. Thank you, Mr. Rohrabacher. Thank you. 
Dr. Bera is recognized.
    Mr. Bera. Thank you, Madam Chairwoman. I am going to shift 
toward my concerns about Afghanistan's economic development and 
the need to maintain some sort of economic growth for 
stability. We have invested billions of dollars obviously and 
lost hundreds of lives in the last decade. I do support the 
administration's current position in terms of maintaining a 
troop presence to help complement the Afghan security forces 
because obviously as we talk to multinational investors, Indian 
companies, and others, one of their chief concerns is the 
security risks in terms of making major investments in 
Afghanistan.
    I applaud the Indian company's investments in major 
infrastructure projects, like the Salma Dam, and the concern I 
have is how do we continue this economic growth? India, as the 
major economy in South Asia, clearly has a role in helping 
increase trade between India and Afghanistan. And I am 
interested in, you know, kind of the perspective there.
    Also, as the Afghanistan-Pakistan Trade Transit Agreement 
kind of moves forward, I know India is very interested in also 
participating in there for the movement of goods and services. 
In Afghanistan's interests, I think Afghanistan is certainly 
interested in making the flow of goods and services easier with 
India. Obviously Pakistan has taken a very different position 
in terms of the over-land transit of goods and services. And I 
do think it is in our interests as the United States to push 
Pakistan to be more open to a trilateral trade agreement that 
makes India's participation available.
    Mr. Sampler, maybe you want to start, or Mr. Olson?
    Mr. Olson. Thank you. Thank you, Congressman Bera. Let me 
first say, as you mentioned in your opening remarks, we greatly 
appreciate the approximately $2 billion that India has invested 
in Afghanistan in development assistance. I wanted to let you 
know that I traveled to Delhi about a month ago myself and 
briefed, along with General Nicholson joined me, and we briefed 
on the situation in Afghanistan with regard to the security 
situation, and also development, and reconciliation, Afghan 
reconciliation.
    I think that it would be particularly helpful, and we made 
this point, to Indian Government officials if India were able 
to participate in some of the development conferences that are 
taking place later this year, especially the Brussels. The EU-
hosted Brussels Development Conference focused on the 
development of Afghanistan, focusing on the years 2018 to 2020, 
and I think the Indian Government is considering that right 
now. In our view, it would be a useful way for them to get some 
credit for what they are, in fact, already doing.
    In terms of regional connectivity, absolutely the U.S. 
Government favors, and the administration favors, everything we 
can do to promote regional connectivity. As you note, APTTA has 
so far been a bilateral agreement between Afghanistan and 
Pakistan. We have been very focused on the implementation of 
that agreement. There has been some discussion of extending 
that to Tajikistan. I think that Pakistan has signalled that it 
is not prepared to extend that to India at this point. But, of 
course, we as a matter of policy favor regional connectivity 
all across the region.
    Mr. Bera. I would continue to encourage the administration 
and the State Department to push for that regional 
connectivity. Certainly through trade, through transit of goods 
and services, you do have the opportunity to try to start 
creating some interconnected economies, create some stability. 
The big worry there is tensions between Pakistan and India, and 
you have two nuclear-armed countries, two countries that have a 
history of tension, but through economic development, through 
trade, through transit of goods and services, you can create 
some stability and connectivity. And, again, I would encourage 
State to continue to push that agenda.
    Ms. Ros-Lehtinen. Thank you, Dr. Bera. Mr. Weber of Texas.
    Mr. Weber. Thank you, ma'am. This is going to be for Mr. 
Olson. I guess we will start with you. And I had to step out, 
so forgive me if this has been answered.
    What is the funding gap between what the Afghan Government 
raises on its own versus what it needs to operate? What other 
countries are contributing to that Afghan Government in order 
to close this gap? And what percentage does the U.S. have?
    Mr. Olson. Thank you, Congressman. I would say a rough 
order of magnitude would be the Afghans raise about $2 billion 
a year in terms of government revenues. This has actually been 
improving of late. The Finance Minister has made it an 
essential effort of his administration to improve revenue 
collection, and he has won high marks from the IMF and the 
international financial institutions generally for undertaking 
that.
    But as you correctly point out, there is a shortfall in 
terms of what we are planning for for the Warsaw and Brussels 
Conferences, the Warsaw NATO Conference and the EU Brussels 
Development Conference. We think that funding the Afghan 
National Security Forces will require about $4 billion a year 
for----
    Mr. Weber. The $2 billion they raise, is that for just 
funding the Afghan forces?
    Mr. Olson. The $2 billion they raise is revenues.
    Mr. Weber. Total revenues?
    Mr. Olson. Total revenues of all government operations, of 
which they devote, I believe, about $500 million to the Afghan 
National Security Forces. They devote another $200 million to 
the National Directorate of Security, which also plays a 
critical role in the defense of Afghanistan, and in their 
accounting they would count that as a defense cost, so that is 
about $700 million.
    And then the remaining $1.3 billion, roughly somewhat less 
than that, is what they use to fund the civilian, the 
government. The shortfall, if we want to call it that, would be 
on the military side, about $4 billion a year, and on the 
civilian side, about $3 billion a year. So going into Warsaw 
and Brussels, our position is that we would like the donors to 
contribute at or near their current levels of funding to 
accommodate the need to fund----
    Mr. Weber. Who are those donors?
    Mr. Olson. Principally for Warsaw, it is primarily NATO, 
NATO allies, and some partners, including Japan, contributes 
significantly to certain security measures, in addition to NATO 
allies.
    On the civilian development side, it is a combination of 
obviously the international financial institutions, World Bank, 
the IMF, but also the European Union is a very significant 
donor. The EU and all the EU member states together probably at 
or perhaps slightly exceed our contribution.
    Mr. Weber. Which is what percentage?
    Mr. Olson. It would be roughly, you know, in terms of the 
targets, it would be about 1 billion each for the years going 
forward, but I would have to get back to you with specific 
percentages.
    Mr. Weber. Get those for me if you would. There is some 
discussion, an Afghan official said they need at least $10 
billion in donated funds until 2025, at which time according to 
this, Afghans expect to be self-sufficient. Is this predicated 
on U.S. troops being there that whole time? And then 
furthermore, there is discussion that Afghanistan's 
counternarcotics chief said there would be no eradication 
efforts in the Hellman Province, which is because of the 
Taliban's presence, this is their major drug trafficking area, 
and is that going to impact their ability to be self-sufficient 
in 2025? Are U.S. troops going to have to be there until 2025?
    Mr. Olson. Congressman, the President has been very clear 
that we will have 9,800 troops through this fighting season and 
a residual force of 5,500 by the beginning of next year. It 
will, of course, be up to the incoming administration to make 
decisions about future troop levels.
    Mr. Weber. Fair enough. Just get that percentage to me if 
you would, and I would also like the answer on if they are not 
going to try to eradicate, I guess that would be the heroin 
production, in that one province, why not, and what is that 
going to do to us?
    And Madam Chair, I will yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Weber. Mr. Cicilline.
    Mr. Cicilline. Thank you, Madam Chairman. I would ask 
unanimous consent to have my opening statement submitted.
    Ms. Ros-Lehtinen. Without objection.
    Mr. Cicilline. Thank you. Thank you to our witnesses. 
Ambassador Olson, with President Obama's October 2015 decision 
to keep a larger U.S. military presence in Afghanistan for a 
longer period of time, would you tell us what results, if any, 
you have seen from this change in administration policy and 
what your expectations are going forward?
    Mr. Olson. Well, I think that the President's decision to 
extend 9,800 troops through the fighting season, and maintain a 
residual force of 5,500 has had a very stabilizing effect on 
the region. I think there is a great concern on the part of 
Afghans and in the region more broadly that the United States 
would disengage from the region.
    I think Mr. Sherman talked earlier in his opening remarks 
about the legacy of the 1990s when the United States did 
disengage, and that is I think one of the contributing factors 
to the rise of the Taliban and ultimately to our own great 
losses on September 11 of 2001. I think there is a great deal 
of anxiety in the region about the potential of U.S. and NATO 
departure, and so the President's decision to keep forces in 
place I think has done a lot to assuage those concerns.
    Mr. Cicilline. Okay. Would you also, I think this could be 
principally Mr. Sampler, how is our assistance improving the 
human rights situation in Afghanistan and Pakistan? We still 
hear horrible stories of abuses, ranging from bacha bazi to 
sexual abuse of young boys by some Afghan Security Forces, the 
recruitment of child soldiers by the Taliban and physical 
attacks on the women and religious minorities. Are any of our 
programs really addressing the root causes of this kind of 
violence and abuse? Are there things we should be doing 
differently to more effectively reduce these horrific 
situations?
    Mr. Sampler. Congressman, thank you for the question. At 
the macro level, I would say that virtually all of our programs 
are working to address the root causes of these issues because 
all of our problems are working to advance Pakistan and 
Afghanistan civil society to a level of self awareness and self 
respect where this kind of behavior isn't tolerated. The United 
States doesn't have the ability or the authority to go into 
either of these countries and police this sort of inappropriate 
and illegal behavior. What we have to do is build communities 
and then institutions within the state that can on their own 
and in an appropriate way police this sort of inappropriate 
behavior.
    There are two things I will talk about that actually I 
think are having a direct impact. One is the connectivity, 
particularly in Afghanistan, but also in Pakistan, where rural 
women in particular now have access to cell phone technology 
that they didn't have 10 years ago. This is partly just because 
of the advances made and the decrease in price of cell 
technology. But USAID is helping civil society learn to use 
this technology in ways to integrate at-risk populations, 
whether it be women or children.
    The second point is our support of rule of law and making 
sure that women and at-risk populations have both access to 
rule of law and then an understanding and advocates who can 
help them make use of those systems of rule of law.
    Mr. Cicilline. Thank you. Ambassador Olson, I want to turn 
for a moment to Pakistan's blasphemy laws. As you well know, 
these laws are widely used and have long been a source of deep 
concerns to international rights organizations and others as 
they sometimes are used to settle feuds, grab land, or 
persecute religious minorities by making false allegations. It 
seems impossible to change or repeal these laws, and, in fact, 
the Governor of Punjab Province sought to make it more 
difficult for false cases to be registered, and he was 
assassinated by a bodyguard, a murder that was celebrated by 
the public who was opposed to changing these laws.
    Is there anything we can do? Are there any incremental 
changes that can be made to these laws that would improve the 
situation as this continues to be the source of some very 
serious both human rights violations and rule of law 
violations?
    Mr. Olson. Thank you very much, Congressman. First of all, 
just I would provide a little bit of an update. As you may have 
read, the man who killed Governor Taseer was recently executed 
by the Pakistani authorities. The Supreme Court upheld the 
death penalty in the case of Qadri, and I think this was seen 
as a, widely interpreted in Pakistan, as a signal of resolute 
opposition obviously to vigilantism and to those who would take 
the law into their own hands. There were protests, but the 
protests at the execution of Qadri, but they have not been 
successful.
    I think it illustrates the divide in Pakistan. There are a 
lot of people in Pakistan who see things the way we do and 
share your concern. I think that they are feeling a bit more 
emboldened now by some of the actions by the Pakistani Supreme 
Court to limit the abuse of blasphemy laws and to also extend 
fuller protection of law to religious minorities. So this is 
very much a work in progress, but I think there are a lot of 
people who think of these things the way we do, and I think we 
need to do everything possible to encourage them as we do.
    Mr. Cicilline. Thank you. And I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Cicilline. Mr. Perry of 
Pennsylvania.
    Mr. Perry. Thank you, Madam Chair. Ambassador Olson, to 
what extent is Iran a player in Afghanistan affairs? If you can 
inform us on the policy tools that Tehran employs to further 
its goals in Afghanistan and elucidate those goals in 
particular, what their presence is in Iran, and whether they 
supply assistance or support for the insurgent groups in 
Afghanistan and to what extent?
    Mr. Olson. Thank you, Congressman Perry. Iran has by and 
large played a constructive goal with regard to Afghanistan, 
and we would encourage them to continue to play a constructive 
role. There have been some press indications that because of 
their concern about the emergence of Daesh in Afghanistan, they 
may be tempted to support the Taliban against Daesh. We think 
that would be a mistake, and we would encourage the Iranians to 
continue to support the Government of Afghanistan, which, of 
course, is taking action against both Daesh, ISIS, and the 
Taliban.
    Mr. Perry. So then is it kind of your feeling or your 
testimony that they don't supply assistance to insurgent 
groups, or do they? Maybe you need to define or I need to 
define what we would consider an insurgent group in the context 
of that discussion, that question.
    Mr. Olson. Congressman, there have been some press reports 
suggesting that they are thinking about supporting the Taliban 
against Daesh. We think that that would be counterproductive 
and mistaken.
    Mr. Perry. Do you consider the Taliban an insurgent group?
    Mr. Olson. Yes, I would consider it an insurgent group, 
yes.
    Mr. Perry. Are you saying right now that they are not 
supporting the Taliban but just considering it?
    Mr. Olson. I think this is a subject that would probably 
require us to be in a different setting to really have a 
thorough discussion of this topic, but I would just say as a 
matter of policy, we would encourage the Iranians to focus 
their energies on supporting the Government of Afghanistan.
    More broadly, I think what we would want to see from the 
neighbors of Afghanistan in general is three things: Its 
support for the territorial integrity and sovereignty of 
Afghanistan and the idea that there will be no restoration of 
the Islamic emirate of Afghanistan, that is the Taliban, but a 
recognition, of course, of the Islamic nature of Afghanistan; 
and, thirdly, the idea that the only way and the best way to 
resolve conflicts in Afghanistan is through negotiation and the 
peace process.
    Mr. Perry. So how actively are you monitoring their 
conversations with the Taliban or would-be conversations? Are 
they having conversations, and are they materially supplying 
currently, or is that stuff that you cannot discuss in this 
forum?
    Mr. Olson. I really cannot discuss it in this forum, sir.
    Mr. Perry. All right. I got it. Moving on quickly. The 
President, Ashraf Ghani, recently threatened to file a 
complaint with the U.N. Security Council if Pakistan failed to 
take military action against Taliban leaders operating within 
Pakistan. The question is, what is Pakistan doing to pressure 
the Afghan Taliban to come to the negotiating table, and how 
has Pakistan used its influenced with the Afghan Taliban to 
bring a reduction in violence to Afghanistan? And have we 
specifically asked Pakistan to do this with regard to exerting 
its influence on the Afghan Taliban?
    Mr. Olson. Thank you, Congressman. Pakistan has actually 
been a good partner to Afghanistan and to us in the search for 
an Afghan-led and Afghan-owned reconciliation process. We have 
been partners in the so-called quadrilateral process, which 
involves the United States, China, Afghanistan, and Pakistan, 
which has called for several times direct, face-to-face 
negotiations between the Taliban and the Afghan Government in a 
publicly acknowledged process.
    Unfortunately, the Taliban have refused to come to the 
table, so it is our view that they should face the consequences 
of that decision. We have long expressed our concerns to the 
Pakistanis about their reluctance to go after terrorists that 
threaten their neighbors with the same degree of assiduousness 
that they go after their own terrorists, and we think that they 
are at a moment of needing to make a very strategic and 
fundamental choice.
    Mr. Perry. Thank you, Madam Chair. I yield back.
    Ms. Ros-Lehtinen. Thank you very much. We thank you for an 
excellent record of public service on behalf of our country. 
Thank you so much. We look forward to getting your answers to 
some of the members' questions in writing.
    Thank you, gentlemen. And with that, the subcommittees are 
adjourned.
    [Whereupon, at 11:37 a.m., the subcommittees were 
adjourned.]

                                     
                                    

                            A P P E N D I X

                              ----------                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
